                              Closeout for M99070038



        On 23 July 1999, we received an allegation that the subject1plagiarized text and
graphics, from one of two nearly identical papers, into his own NSF proposal. Our
inquiry into the allegation determined that the subject had apparently not distinguished the
copied text or provided any authorship credit to the original author. We determined there
was sufficient substance to warrant an investigation. We notified the subject's institution
and deferred our investigation to the institution.

        The institution conducted an investigation and provided us with a copy of their
investigation report. The university determined that the subject had committed
plagiarism and it recommended five actions:

        1. Place a letter of reprimand in the subjects personnel file.
        2. Suspend the subject from submitting any proposals for one year.
        3. Withdrawal of all the subjects pending proposals.
        4. Review all the subject's proposals during the calendar year following the one-
           year suspension.
        5. Subject participation in an appropriate training program.

Our review of the institution's report determined that the investigation was thorough, fair
and accurate. Based on the institution's report and our own investigation, we determined
that the subject committed misconduct in science. Our investigation report and the NSF
Deputy Director's 20 June 2001 letter reflecting his decision and this memo constitute the
closeout for this case.




' Redacted
                                         Page 1 of 1
                            4201 WILSON BOULEVARD
                           ARLINGTON, VIRGINIA 22230




                                              June     20,   2001
      OFFICE OF THE
     DEPUY DIRECTOR

    CERTIFIED MAIL --RETURN RECEIPT REQUESTED




    Re:   Notice of Misconduct in Science Determination


    The National Science Foundation's (NSF) Office of Inspector
    General (OIG) issued an investigative report in which it found
    that you submitted a proposal to NSF that plagiarized text and
    figures from two conference papers. A copy of the Investigative
    Report is enclosed.
    The OIG sent you a copy of the draft investigative report in
    June, 2 0 0 0 and apprised you that you could submit comments on
    their report by July 15, 2 0 0 0 . You did not submit any comments
I   on the report.

    Scientific Misconduct and Proposed Sanctions
I



    The Foundation's administrative record indicates that vou



    found the proposal contained copied material from two conference
    proceedings1 without acknowle ing the source materials, and
    without their permission. &found     that you acted in reckless
    disregard of the accepted standards of the academic community.
    IIT concluded that this constitutes plagiarism, as well as a
    serious deviation from accepted practices within the scientific
    community. The Office of Inspector General agreed with 0
    conclusion.
       through December 31, 2001, you must simultaneously submit a
       copy of the document along with a separate written
       certification to the Associate Inspector General for
       Scientific Integrity, Office of Ins~ectorGeneral, 4201
       Wilson Boulevard, Arlington, Virginia 22230. The
       certification shall state that you have reviewed NSF's
       Misconduct in Science Regulation (45 C.F.R. Part 689) and
       that the document contains no plagiarized material.
          For the same time period, if you submit any
       documents to NSF, you must ensure that your Department
       Chairperson or the equivalent simultaneously submits an
       assurance to the Office of Inspector General that, to
       the best of that person's knowledge, the document does
       not contain any plagiarized material.
Procedures Governins A~geals
Under NSFfs regulations, you have 30 days after receipt of this
letter to submit an appeal of this decision, in writing, to the
Director of the Foundation. 45 CFR §689.9(a). Any appeal should
be addressed to the Director at the National Science Foundation,
4201 Wilson Boulevard, Arlington, Virginia 22230. For your
information we are attaching a copy of the applicable
regulations. If you have an questions about the foregoing,
please call Lawrence Rudolph, General Counsel, at (703) 292-8060.




                                   Joseph Bordogna
                                   Deputy Director

Enclosures (2)
Investigative Report
NSFrs Misconduct in Science Regulations

bcc:   L. R u d o l p h , OGC
       C; .B o e s z , OIG
                         OIA
                       Confidential




   Office of Inspector General

                          Repmt
                Imsti&+ution
                        OIG Case M99070038




This document is loaned to you FOR OFFICIAL USE ONLY. It remains the
property of the Office of Inspector General. It may not be reproduced. It may
be disclosed outside of NSF only by the Inspector General, pursuant to the
Freedom of Information and Privacy Acts, 5 U.S.C. s$552,552a.
                                                 Summary

The Office of Inspector General (OIG) has concluded that the subject1 incorporated,
without attribution and distinction,2 text and graphics from one or both of two nearly
identical papers3'4 (the "first paper" and the "second paper") into a proposal5 that he
submitted to the National Science Foundation (NSF), and by doing so committed
misconduct in science. The subject's institution investigated the allegation and found that
the subject's action with respect to the text and graphics constituted plagiarism and therefore
misconduct in science.

We recommend that NSF take three actions as a final disposition in this case:

         1. NSF should send a letter of reprimand to the subject informing him that he has
            been found to have committed misconduct in science.

         2. For a period of 2 years, NSF should require the subject to submit certifications
            to OIG in conjunction with any documents the subject submits to NSF or with
            any documents submitted to NSF for which the subject has authorship
            responsibilities stating that, to the best of his knowledge, those documents
            contain no plagiarized material.

         3. For the same period, NSF should require the subject to submit institutional
            assurances, signed by individuals designated by the Chair of the subject's
            Department, to OIG in conjunction with any documents the subject submits to
            NSF or *with any documents submitted to NSF for which the subject has
            authorship responsibilities stating that, to the best of the signee's knowledge,
            those documents contain no plagiarized material.


                                              OIG's Inquiry

It was alleged that the subject's proposal contained material that had been plagiarized from
the first paper. Our comparison of the subject's proposal and the first paper revealed that
approximately 50 lines of text and 2 graphics in the subject's proposal (the first two
paragraphs and figures 1 and 2 on pages 1-2, a portion of the second paragraph on page 7,
and portions of the first two paragraphs on page 9) were identical or substantially similar to
material in the first paper (the first two paragraphs and figures 1 and 2 of section I on pages
1-2, a portion of the first paragraph on page 3, and the second and third paragraphs on page
3, respectively). The identical and substantially similar text and graphics are presented in the
subject's proposal without attribution and distinction.




1 Redacted
2 The term "distinctionn is used to indicate a method, such as font, indentation, quotation marks, or other
means, used so that the reader can differentiate between copied material and original material in the document.
3 Redacted
4 Redacted
5 Redacted
We wrote to the subject and asked him to explain the presence of the apparently plagiarized
material in his pr~posal.~ The subject admitted to copying and paraphrasing the specified
text and graphics found on pages 1 and 2 of his pr~posal:~

         I thought it would be convenient to adopt some existing accurate description
         by researchers closely tied with industry when I wrote. the proposal. I do
         have some basic concept of the copyright. But I thought . . . it should be
         fine to adopt [an existing description] for the.. .purpose of
         explaining . . .the problem . . . . This is perhaps where I went wrong . . . .

         Among all the existing publications that explained the background, I found
         [the source papers] did the best. I . . . copied and paraphrased the first
         portion indicated in your letter. But let me iterate again that it serves only as
         background information . . . .

Regarding the portion of the second paragraph on page 7, the subject stated "I do not agree
that it is plagiarism."8 He based his argument on the observation that he used the
unattributed and undistinguished identical and substantially similar text to introduce a
problem that was conceptually different than the problem the authors of the source papers
originally used the material to introduce.

As for the portions of the first two paragraphs on page 9, the subject, using an argument
similar.to the one he offered concerning the material on page 7, claimed, "I really can't
understand why the reformulation of a more difficult problem by the same argument . . . is a
[szij plagiarism."9

We concluded, based on the evidence and the subject's response to our inquiry letter, that
the allegation was substantive. On October 25, 1999, we formally deferred the investigation
of this case to the subject's institution.1°


                                         Institution's Investigation

On January 21,2000, we received the report issued by the committee appointed by the Vice
President and Chief Academic Officer of the subject's institution to investigate the
allegations of scientific misconduct against the subject."
In summary, the report stated:12


6 See Appendix 4: OIG's Inquiry Letter (sent August 13, 1999).
7  See Appendix 5: Subject's Response to OIG's Inquiry Letter (received August 26, 1999), p. 3 (original
emphasis). It was through the subject's response to our inquiry letter that we learned about the second paper.
The second paper is nearly identical to the fmt paper. Our comparison of the subject's proposal and the
second paper revealed that the approximately 50 lines of text and 2 graphics in the subject's proposal, which
are identical and substantially similar to material in the first paper, are also identical and substantially similar to
material in the second paper.
8 Id., p. 4.
9 Id., p. 6.
10 See Appendix 6: OIG's Deferral Letter (sent October 25,1999).
11 See Appendm 7: Committee's Investigation Repon (received January 21,2000).
'2 Id, p. 4.
         it is the committee's view that [the subject] copied figures and portions of
        ,text into his proposal without acknowledging the source of the material, that
         this action constitutes plagiarism and therefore scientific misconduct, and
         that he did it with careless disregard for the accepted standards of the
         academic community.

We were concerned about a finding of misconduct without a level of culpable intent on the
part of the subject, and on March 1, 2000, we requested clarification regarding the
committee's determination of the subject's state of mind.13 O n March 17, 2000, we received
a letter &om the Chairman of the committee explaining that the committee believed "[the
subject] acted with 'reckless disregard'," and that the summary statement should actually
read, in part, "he did it with reckless disregard for the accepted standards of the academic
community."I4


                                       Institution's Resolution

The committee considered as mitigating factors the subject's lack of training in professional
academic conduct, his cultural background, his junior status, and his sincerely held beliefs
that his actions were not wrong.15 It recommended five actions:16

         1. Placement of a letter of reprimand, sent to the subject by the Vice President and
            Chief Academic Officer, in the subject's personnel file until December 31,2001,
            at which time it may be removed if there are no other instances of academic
            misconduct involving the subject between the date of the letter and the
            December 31,2001.

         2. Suspendmg the subject &om submitting any proposals for any external funding
            until December 31,2000.

         3. Withdrawal of the subject's pending proposals.'7

         4. Review of any proposals the subject intends to submit during the 2001 calendar
             year by an individual designated by the Chair of the subject's department.

         5. Participation of the subject in an appropriate training program to be designed in
            consultation with institutional officials.
The committee also made a general recommendation that the institution establish a formal
program for training graduate students and faculty, in particular new and junior faculty, in
matters of professional misconduct.

The Vice President and Chief Academic Officer of the Main Campus accepted the
committee's report and enacted its recommendations in full.18


j3  See Appendix 8: OIG's State of Mind Letter (sent March 1, 2000).
l4 See Appendix  9: Committee's Explanation Letter (received March 21, 2000).
l 5 See Appendix 7: Committee's Investigation Report, p. 4-5.
l6 Id., p. 5.
l7 Redacted
                                            OIG's Assessment

We believe the institution's investigation report describes a fair, accurate, and thorough
evaluation of the facts relevant to the allegation. We have used the report as the basis of our
own conclusions about misconduct in science.

NSF defines misconduct, in relevant part, as "fabrication, falsification, plagiarism, or other
serious deviation from accepted practices in proposing, carrying out, or reporting results
from activities funded by NSF" (45 C.F.R. f, 689.1(a)(l)). A fmding of misconduct in
science against a subject requires that the subject both committed a wrongful act and did so
with a level of culpable intent that justifies taking action against the subject. In order to
make a finding of misconduct, the subject must have acted, minimally, with gross negligence.
NSFYs standard of proof in evaluating      - each element of misconduct in science is a
preponderance of the-evidence.



The subject admitted to both the committee and OIG that he copied material from the two
papers.'9 However, he offered four reasons why his actions were not plagiarism:20

         1. He provided a citation to one of the papers in his proposal, if he had intended to
            plagiarize he would not have done so.

         2. He doesn't need to plagiarize because, as his publication record makes evident,
            he knows the subject matter well enough.

         3. The material he copied is only background information, he was not presenting
            the author's method as his own.

         4. Copying text and figures without acknowledging the source is an unacceptable
            practice in publications designed for a wide audience, but it is acceptable in
            proposals that are to be read only by a few reviewers.

We do not find the subject's arguments to be persuasive. While it may be true that on page
5 of his proposal the subject included a citation to the second paper:' this citation was not
made in connection with any of the copied and paraphrased material. Furthermore, a single
citation would hardly be sufficient attribution for the volume of copied and paraphrased
material in the subject's proposal. As for the subject's level of expertise in his field and
background nature of the material in question, such information is entirely irrelevant to the


'8 See Appendix 10: Vice President and Chief Academic Officer's Letter of Reprimand (received January 21,
2000). The Vice President and Chief Academic Officer of the subject's institution sent this letter to the subject
and placed a copy in his personnel fde on January 12,2000.
19 See Appendix 7: Committee's Investigation Report, p. 3 and Appendix 5: Subject's Response to OIG's
Inquiry Letter, p. 3.
20 See Appendix 7: Committee's Investigation Report, p. 3.
21 See Appendix 3: Subject's NSF Proposal.
fact that unattributed and undistinguished copied and paraphrased material was incorporated
into h s proposal. And finally, in regard to proposal authorship:u

         NSF expects strict adherence to the rules of proper scholarship and
         attribution. The responsibility for proper attribution and citation rests with
         authors of a research proposal; all parts of the proposal should be prepared
         with equal care for this concern. Serious failure to adhere to such standards
         can result in findings of misconduct in science.

Similarly, the committee determined that the subject's actions and explanations were
contrary to accepted standards of practice in the subject's institutional community, the
subject's professional community, or any other professional community with whch the
members of the committee were a~sociated.'~

We conclude that the subject, as demonstrated by a preponderance of the evidence, copied
and paraphrased approximately 50 lines of text and 2 graphics without attribution and
distinction from one or both of the hrst and second papers into his proposal. Our
condusion concurred with that of the ~ommittee.'~

The Subject 's Intent

The act of copying directly kom a source into one's own document intrinsically requires an
awareness of that act. The scientific and engineering community, as well as N S F , ~routinely
                                                                                       ~
state expectations regardtng adherence to the tenets of professional conduct.26The subject's
responsibility to f a d a r i z e himself with such standards and behave accordingly is
unequivocal.

The subject stated not only that he copied material fiom the papers,27but also that this
action was based on a conscious decision to "adopt some existing accurate description by
researchers dosely tied with industry when Fe] wrote the proposal."28

In the opinion of the committee's expert reviewer, the subject "acted with knowing
disregard in copying the material.'""he    committee concluded that "he did it with reckless
disregard for the accepted standards of the academic community.'jO
We conclude that the subject, as demonstrated by a preponderance of the evidence, acted
culpably when he copied and paraphrased approximately 50 lines of text and 2 graphics
without attribution or distinction kom the papers into his proposal.




22 NSF  Grant Proposal Guide (GPG) @SF 99-2), p. 1.
23 See Appendix 7: Committee's Investigation Report, p. 3.
24 Id.
25 See Footnote 22.
26 Redacted
27 See Appendix 7: Committee's Investigation Report, p. 3 and Appendm 5: Subject's Response to OIG's
Inquiry Letter, p. 3.
28 See Appendix 5: Subject's Response to OIG's Inquiry Letter, p. 3.
   Redacted
30 See Appendix 9: Committee's Explanation Letter.
Condusion

Based on our conclusions regarding the subject's actions and intent, we conclude that the
subject committed misconduct in science when he plagiarized 50 lines of text and two
graphics from published material authored by others into his NSF proposal.


                                    OIG's Recommended Disposition

As specified under § 689.2(b) of NSF's misconduct in science and engineering regulation, in
deciding what actions are appropriate when misconduct is found, NSF officials should
consider the seriousness of the misconduct, the intent with which the misconduct was
committed, whether the misconduct was an isolated event or part of a pattern, and finally
the relevance of the misconduct to other funding requests or awards.



The amount of plagiarism in this case (approximately 50 lines of text and 2 graphics) is
significant. The subject's actions seriously deviated from the accepted standards of practice
of the scientific and engineering community. Additionally, when he submitted his proposal
to NSF, the subject falsely certified that "the text and graphics herein . . . u h s otherwise
indicated, are the original work of the signatories or individuals working under their
                                                                                        L
supervi~ion."~~



The committee's expert reviewer stated that he found no additional evidence of plagiarism
among the subject's published papers or book chapters?2 Likewise, the committee member
who reviewed 14 documents authored or co-authored by the subject against selected
references, found no other instances "in which [the subject's] documents included copied or
paraphrased text. . . or copied figures."33 We concur with the committee "that there is no
evidence of a systematic pattern of plagiarism on the part of [the ~ubject].''~~

R              d NSF Action

We believe the actions taken by the subject's institution should be more than sufficient to
protect NSF's interest. However, in order to convey to the subject the seriousness NSF
attaches to his actions, NSF should take measures whch reinforce those of the subject's
institution.
We recommend that NSF take three actions as a final disposition in this case:

            1. NSF should send a letter of reprimand to the subject informing him that he has
               been found to have committed misconduct in science?'


3'   See Appendix 11: Subject's Signed Certification Page.
32 Redacted
33 Redacted
34   See Appendix 7: Committee's Investigation Report, p. 4.
35   This is a Group I action (see 45 C.F.R.5 6899.(a)(l)(i)).
            2. For a period of 2 years, NSF should require the subject to submit certifications
               to OIG in conjunction with any documents the subject submits to NSF or with
               any documents submitted to NSF for which the subject has authorship
               responsibilities stating that, to the best of his knowledge, those documents
               contain no plagiarized material?6

            3. For the same period, NSF should require the subject to submit institutional
               assurances, signed by individuals designated by the Chair of the subject's
               Department, to OIG in conjunction with any documents the subject submits to
               NSF or with any documents submitted to NSF for which the subject has
               authorship responsibilities stating that, to the best of the signee's knowledge,
               those documents contain no plagiarized materiaL3'


                                                Subject's Response

The subject did not respond to our original invitati~n;~or to our numerous additional
requests, to provide comments or rebuttal regarding the findings and recommendations
presented in this report.




36   This is a Group I1 action (see 45 C.F.R. $ 689.2(a)(2)(ii)).
37   This is a Group 11action (see 45 C.F.R. $ 689.2(a)(2)(ii)).
38   See Appendix 12: OIG's Invitation Letter (sent June 16,2000).
